Report No. AU99-012 (805250)
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistics Report
Grantee: Legal Aid Society of San Diego
Recipient No. 805250
AU99-012
March 1999
APPENDIX 2:
Grantee
Response,
Exhibits,
and
Attachment
OTHER REPORTS
OIG HOME
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE, AND METHODOLOGY
RESULTS OF AUDIT
CASE MANAGEMENT REPORTING
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Use of Automated Case Management System to Prepare Annual Grant Activity Report
Examination of Reported Cases
Closed Cases Overstated
Referrals Without Legal Assessment
Non-LSC Funded Private Attorney Involvement Cases
Nonexistent Cases
Duplicate Records
Open Cases Understated
LSC GUIDANCE ON REPORTING
OTHER CASE MANAGEMENT ISSUES
Cases Without Client Names
Errors Recording Client Information in Case Management System
CONCLUSIONS
RECOMMENDATIONS
MANAGEMENT OF PRIVATE ATTORNEY INVOLVEMENT PROGRAM
RECOMMENDATIONS
APPENDIX 1 - LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
APPENDIX 2 - LEGAL AID SOCIETY OF SAN DIEGO COMMENTS ON DRAFT REPORT
EXECUTIVE SUMMARY
The 1997 Grant Activity Report submitted by the Legal Aid Society of San
Diego significantly overstated the number of cases closed during the year and
understated the cases open at year end.  The program reported 32,304 cases closed,
but only 10,279 cases qualified to be reported as closed.  Therefore the reported
closed cases were overstated by 22,025 cases, or 68 percent of the total reported.
A total of 792 cases were reported as open, but the program had 1,076 open cases
at year end.
Closed cases were overstated primarily because 14,398 telephone calls were
reported as cases closed, even though the callers were not provided any legal
assistance and only partial eligibility determinations were made.  Essentially the callers
were given the telephone number of a legal service provider that might have been able
to help them.  An additional 4,700 Private Attorney Involvement closed cases, paid
for with non-LSC funds, were reported.  LSC reporting requirements allow only cases
funded entirely or partially with LSC funds to be reported.  Clerical errors added 2,692
to the total reported closed cases.  We also estimated that 235 cases were reported
twice.  Open cases were understated because only cases opened during the year and
remaining open at year end were reported instead of all cases remaining open at year
end.
Two other problems, not directly related to case counting, were also disclosed
during our review.  Legal Aid Society of San Diego's automated case management
system included over 1,000 cases without a client name.  In addition, we estimate
about five percent of the cases in the case management system data base had
incorrect reason closed codes.
Recommendations to correct the above problems are on page 10.
The Legal Aid Society of San Diego contracted with another non-profit legal
service organization to meet its Private Attorney Involvement requirements.  This
organization did not verify the eligibility of 90 percent of its clients with domestic
abuse and voluntary guardianship cases.  The Legal Aid Society of San Diego needs
to monitor its contractor to ensure that only allowable cases are being serviced.  On
page 13 we make recommendations to correct the problem.
BACKGROUND
The Legal Aid Society of San Diego is a nonprofit California corporation
organized in 1953 to provide legal services to indigent individuals who meet
established eligibility guidelines.  Its priorities include housing, income maintenance,
medical, family, and consumer issues.  The grantee is headquartered in San Diego and
has a branch office in Oceanside.  Its staff includes 19 attorneys, 13 paralegals, and
24 other staff who provide computer, accounting, and administrative support services.
In 1997, the grantee received funding totaling about $3.1 million.  About 73.6
percent, or $2,261,629, came from LSC.  The grantee attempts to meet its Private
Attorney Involvement requirement primarily through a contract with the San Diego
Volunteer Lawyers Program for the provision of family law services.
The grantee is required to prepare and submit an annual Grant Activity Report
to LSC on key aspects of its workload.  The report includes statistics for basic field
services and Private Attorney Involvement programs funded with LSC funds, including
the number of open and closed cases, types of cases, and the reasons for closing
cases.  For calendar year 1997, the grantee reported 792 open cases and 32,304
closed cases to LSC.
The grantee keeps track of client cases primarily through a customized "Turbo"
case management system operated at both the main office in San Diego and the
Oceanside branch office.  The San Diego Volunteer Lawyers Program records and
tracks client cases in a separate computer system which is also used to produce case
statistical reports on Private Attorney Involvement cases.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its 1997 Grant Activity Report.
The Office of Inspector General (OIG) performed this audit from August 10
through August 21, 1998, at the grantee's main office and from October 13 through
22, 1998 at the grantee's main office and the subgrantee's office.  The OIG obtained
and examined the grantee's 1997 and 1998 grant proposals to LSC; 1995, 1996, and
1997 grant activity reports; and 1996 and 1997 Program Integrity certifications.
During the on-site visit, the OIG interviewed, and collected information from the
grantee's executive director, managing attorneys, staff attorneys, paralegals, intake
staff, information system specialist, and other support staff as well as the executive
director and staff of the San Diego Volunteer Lawyers Program.
The OIG also obtained and reviewed the data in the grantee's automated case
management system to determine if the case statistical data reported to LSC in the
Grant Activity Report was consistent with information in client case files and in
compliance with applicable LSC reporting requirements.  The OIG randomly selected
85 client cases for detailed review.  The OIG reviewed client case files for 30
additional cases which appeared to be duplicate cases.
The OIG reviewed the contract between the grantee and the San Diego
Volunteer Lawyers Program and related funding transactions.  The OIG also obtained
and examined data in the San Diego Volunteer Lawyers Program's automated case
management system to determine if the case statistical data reported to the grantee
for 1997 was consistent with information in client case files and with the information
reported by the grantee to LSC for the Private Attorney Involvement program.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and under
authority of the Inspector General Act of 1978, as amended and Public Law 105-119,
incorporating by reference Public Law 104-134, §509(g).
RESULTS OF AUDIT
CASE SERVICE REPORTING
The 1997 Grant Activity Report submitted by the grantee significantly
overstated the cases closed during the year and understated the cases remaining open
at year end.  Most of the overstatement resulted from the practice of counting and
reporting as cases very brief telephone contacts where no legal service was provided
and no eligibility checks were performed.  Additional overstatements resulted from
reporting:  (1) non-LSC funded Private Attorney Involvement cases, (2) cases that did
not exist, and (3) some duplicate cases. The overstatement was caused by the
grantee's failure to follow LSC reporting instructions, clerical errors in Grant Activity
Report preparation, and a lack of supervisory review.  The understatement of open
cases resulted from the incorrect extraction of data from the case management
system.
Case Service Reporting Requirements
LSC requires recipients to submit an annual Grant Activity Report  summarizing
the previous year's legal services activity wholly or partially supported with LSC funds.
The information in the report includes total number of cases worked on, types of legal
issues, number of open and closed cases and the reasons cases were closed.  The
report also includes information on Private Attorney Involvement cases.  The Case
Service Reporting Handbook and Grant Activity Report  instructions provide reporting
criteria for cases.  Reported cases must be for eligible clients and within the recipient's
priorities.  Eligibility is based on income and asset determinations and must be
documented.
LSC Uses of Grant Activity Report
LSC uses recipient case statistical information to support the Corporation's
annual budget request and as a performance measure in the performance plan
submitted in response to the Government Performance and Results Act.  The
compilation of program-wide data on open and closed cases is an integral part of the
management oversight process and also allows LSC management to keep its Board of
Directors and the Congress informed of significant program activities and performance.
LSC collects and stores summary statistics on open and closed cases in a centralized
database at corporate headquarters in Washington, DC.  For 1997, the database
included data for 269 grantees.  It showed that the grantees had 471,600 cases open
at year end and had closed 1,461,013 cases during the year.
Use of Automated Case Management System to Prepare Annual Grant Activity
Report
Turbo-Cases is a data processing system that allows the grantee to store,
retrieve, and analyze information about client cases and the organization's delivery of
legal services.  It has been used since 1993 to produce annual case statistical reports
for LSC.  The grantee used the case records in the "Turbo" database to produce reports
on open and closed cases.  The data from these reports was then manually entered
into to the Grant Activity Report system.
In response to the annual reporting requirement, the grantee submitted the
following information to LSC.
Type of Legal ProblemOpenClosed
Consumer/Finance821,846
Education32105
Employment0681
Family16114,142
Juvenile12148
Health11735
Housing2335,342
Income Maintenance1752,950
Individual Rights861,077
Miscellaneous05,278
Totals79232,304
The 32,304 cases that the grantee reported as closed included 14,917 referrals
to other legal services providers and 4,700 Private Attorney Involvement cases that
were handled by the San Diego Volunteer Lawyers Program.  Overall, the grantee
classified about 94.2 percent (30,426 cases) of the closed cases as brief services and
5.8 percent of them (1,878 cases) as extended services.
Examination of Reported Cases
The grantee overstated closed cases by 22,025 and understated open cases by
284 cases in the 1997 Grant Activity Report.  The overstatement occurred primarily
because the grantee did not exercise due care, or follow LSC instructions, when
preparing the report.  The omission of the open cases occurred primarily because the
grantee did not retrieve all open cases from the automated case management system.
Closed Cases Overstated
The grantee should have reported 10,279, instead of 32,304, closed cases.
The closed cases were significantly overstated because the grantee reported (1) a large
number of referrals that should not have been reported as cases, (2) Private Attorney
Involvement cases that were not funded by LSC, (3) non-existent cases resulting from
clerical errors, and (4) duplicate cases.  The following chart shows the number of
overstated cases by category.
Overstated Closed Cases
Referrals Without Legal Assessment14,398
Non-LSC Funded Private Attorney Involvement4,700
Non-Existent Cases2,692
Duplicates  235
Total22,025
The grantee derived the 32,304 closed case figure by combining data from its
case management system with data provided by the San Diego Volunteer Lawyers
program.  The system produced a Case Statistical Report showing 24,912 closed
cases of which 14,907 (about 60 percent) were "referred after legal assessment"
cases.  The grantee contacted the San Diego Volunteer Lawyers Program by telephone
and obtained summary information indicating that 4,700 private Attorney Involvement
cases were closed during the year.  The combined figures totaled 29,612 cases.  A
series of clerical errors increased the total number of closed cases reported on the
Grant Activity Report to 32,304.
Referrals Without Legal Assessment
The grantee incorrectly reported 14,398 telephone contacts with prospective
clients  as cases closed.  The only service provided during these calls were by the
grantee's  screeners (non-attorneys and non-paralegals) who gave the callers the phone
numbers of other legal service providers in the San Diego area.  The screeners obtained
the caller's name, address, legal problem and entered the information as cases in the
automated case management system.  Typically only a few minutes were spent with
the caller.  The screeners did not ask the caller for specific income and asset
information required by 45 CFR 1611.5(b) to determine financial eligibility.  The
screeners did not suggest to the callers that the grantee would provide any type of
legal service other than the phone number of another legal services provider.  The
screeners, who were not paralegals or attorneys, did not have the legal qualifications
necessary to assess the merits of the callers' problems or to classify them as cases.
In addition, the grantee did not forward any information collected by screeners about
prospective clients to other legal services providers.
The grantee should have categorized the 14,398 telephone contacts as matters,
not cases, because the only assistance provided was a telephone number of another
legal services organization.  LSC requires that cases be reported only when the
individual seeking assistance is eligible under LSC regulations, is accepted as a client,
and an attorney/client relationship exists.
Non-LSC Funded Private Attorney Involvement Cases
The grantee incorrectly reported 4,700 Private Attorney Involvement closed
cases that were financed with non-LSC funds.  The 1997 Grant Activity Report
instructions stated that grantees were only to report cases that were fully or partially
paid for with LSC funds.  The 4,700 Private Attorney Involvement cases were handled
by the San Diego Volunteer Lawyers Program under a contract with the grantee to
perform family law services.  The grantee paid San Diego Volunteer Lawyers Program
with funds that were not received from LSC.  Therefore, the grantee should not have
reported the Private Attorney Involvement cases handled by San Diego Volunteer
Lawyers Program.
The grantee's staff asserted that the Private Attorney Involvement case closure
statistics were included in the Grant Activity Report  primarily because of conflicting
LSC instructions.  The instructions allow non-LSC funds to pay for Private Attorney
Involvement cases and require that Private Attorney Involvement cases be reported,
but preclude the reporting of cases not funded by LSC.
The OIG does not agree that the instructions are unclear.  Both the Grant
Activity Report  instructions and the Case Service Reporting Handbook clearly require
that only cases wholly or partially funded by LSC be reported.  Private Attorney
Involvement cases that are financed with non-LSC funds should not be reported. The
grantee's staff could have resolved reporting concerns by following the instructions
on page one of the Grant Activity Report instruction and contacting the LSC staff
listed.
Nonexistent Cases
The grantee incorrectly reported as closed 2,692 cases that did not exist. The
grantee's  case management system indicated that 29,612 cases were closed during
1997.  However, the grantee's Grant Activity Report reported that 32,304 cases were
closed.  The 2,692 case overstatement occurred because of errors that were made
when the case management data was manually entered into the Grant Activity Report
system.
The case management system and the Grant Activity Report  system are not
electronically linked, even though both are automated systems.  The case statistics
data from the case management system must be entered manually into the Grant
Activity Report  system.  The grantee staff person who entered the data made errors
that understated some types of cases by 1,059 and overstated other types of cases
by 3,751.  This resulted in a net overstatement of 2,692 closed cases.  The error was
not detected because no supervisor reviewed the Grant Activity Report  prior to its
submission to LSC and because the Grant Activity Report  data was not verified with
the case management system.
Duplicate Records
The reported closed cases were overstated by an estimated 235 duplicate
records.  In these instances, the grantee recorded, closed, and reported the same case
twice.
A "near duplicate" report from the grantee's case management system indicated
that the system included duplicate records.  These records occur when two or more
separate cases are established for a client on the same legal problem.  The "near
duplicate" report indicated a potential 1410 duplicate closed cases.  Our review of a
sample of 30 cases showed that 16.7 percent were duplicates.  We applied this
percentage to the 1410 potential duplicates and estimated that 235 duplicate closed
cases were reported.
Open Cases Understated
The grantee under reported open cases by 284 (26 percent) because only
cases opened during 1997 and not closed by year end were reported.  Cases that
were opened in prior years were not reported, even though they remained open at
the end of 1997.  Some cases that were open at year end, but subsequently closed
were also omitted from the Grant Activity Report.  Reporting instructions require
that all open cases be reported, regardless of the year they were established.  The
problem occurred because grantee staff incorrectly extracted information on open
cases from the case management system
LSC GUIDANCE ON REPORTING
LSC recently revised and issued a new Case Services Reporting Handbook that
addresses many of the problems discussed in this report.  This new handbook includes
additional requirements and procedures that should improve the accuracy and
completeness of data reported in the Grant Activity Report.  In addition, new, clearer
definitions of case, client, and referred after legal assessment are provided.  These
definitions should help the grantee improve the accuracy of its future Grant Activity
Reports.  Most requirements in the revised handbook are applicable to reports due in
March of the year 2000.  However, two important requirements are applicable to the
March 1999 Grant Activity Report.  One requires the timely closing of cases and the
other requires management review of the Grant Activity Report before it is submitted
to LSC.  Grantee management should ensure that all staff members who assist in
preparing the Grant Activity Report are familiar with the revised handbook and that the
new requirements are followed.
OTHER CASE MANAGEMENT ISSUES
Two other problems concerning the grantee's case management system
surfaced during the OIG review.  Specifically, the case management system did not:
(1) include client names for all cases, and (2) always agree with the information in
client case files.
Cases Without Client Names
Over 1,000 cases recorded in the management system did not include the
client's name.  These cases may not be valid LSC cases.  Eligibility cannot be verified
or a conflict check performed unless potential clients' names are known.  Grantee staff
suggested that many people wish to remain anonymous and do not provide their
names to the screeners.
Errors Recording Client Information in Case Management System
The grantee's automated case management system had a 5 percent error rate.
The errors resulted from erroneous reason closed codes.  The primary cause of the
problem was the staff's lack of familiarity with the definitions in the Grant Activity
Report  instructions and Case Service Reporting Handbook.
CONCLUSIONS
The grantee needs to improve the accuracy of case statistics reported in the Grant
Activity Report.  Its 1997 report erroneously included 22,025 closed cases, or
approximately 68 percent of the reported total.  Open cases were understated by 26
percent.  Unless grantee management takes prompt corrective actions, similar errors
are likely to occur in future reports.  The problems could be solved through additional
supervisory review and oversight of the staff preparing the report and better report
preparation procedures.
RECOMMENDATIONS
The OIG recommends that the grantee:
Implement procedures providing for the supervisory review over preparation of the Grant Activity Report.
Implement procedures to validate the accuracy of the Grant Activity Report before it is submitted to LSC.
Implement procedures requiring that a detailed case listing be prepared to support the statistical data on open and closed cases in the Grant Activity Report.
Periodically prepare a "near duplicate" report and purge redundant records from the automated case management system.
Implement procedures that require clients to provide their names before a case is opened.
Periodically prepare automated case management reports with LSC standard problem types and reason closed codes and circulate to managing attorneys to validate that the information in the automated system matches the information in client case files.
SUMMARY OF GRANTEE COMMENTS ON CASE STATISTICS REPORTING
The grantee's comments did not question the report's significant factual data. The
major point of the comments concerned the finding that the number of closed cases
reported in the 1997 Grant Activity Report was substantially overstated. The
comments stated that the grantee had "... independently determined the stated errors
... adjusted our figures... and ...implemented changes in our procedures to no longer
count telephone referrals as closed cases".  The comments stated that this information
was provided to the OIG in an August 3, 1998, letter prior to the start of the audit.
The comments also:
disagreed with the report's statement that "... no eligibility determinations were made..." for callers who were not provided legal assistance. The comments stated that basic eligibility determinations were made for each caller (gross family income and number in household).
questioned the appropriateness of the statistical sample used to estimate that 282 cases were reported twice. The grantee agreed that five duplicate cases were found.
questioned the use of the term "cases" to describe the records in the data base that lacked names. According to the grantee, the records lacking names were for referred callers. Therefore, " Since ... referrals are not allowed to be reported or termed "cases" ... they ... cannot be identified as "cases for this comment".
asserted that the reported percentage of errors in the data base due to  incorrect problem type or reason closed codes was incorrect because only one case might have been in error and that one case did not result in a substantial error rate.
The comments stated that the recommendations were discussed in the grantee's
August 3,1998 letter to the OIG and that the recommendations were being
implemented.
The grantee's comments are in Appendix 2.
OIG RESPONSE TO GRANTEE COMMENTS
The grantee's August 3, 1998 letter did indicate problems with case counting and
reporting of referrals after assessment. However, the letter stated that the total
number of reported closed cases should have been 25,208, substantially more than
the approximately 10,279 cases that we estimated were actually closed during the
year. The grantee made no effort to correct the reporting until our audit was well
underway. Its 1997 Grant Activity Report was not amended to report 10,208 closed
cases until January 9, 1999. Clearly, the OIG audit resulted in the grantee more
accurately reporting closed cases.
Response to other grantee comments:
eligibility determinations - The OIG changed the report to indicate that partial eligibility determinations were made when individuals called seeking legal assistance and were referred to other legal service organizations.
statistical sample for duplicates - The OIG sample was valid. The grantee agreed that five cases were duplicates. We accepted the grantee's statement that there were five duplicate cases and adjusted our estimate of total duplicates in the case management system from 282 to 235.
use of the term cases applied to records that did not include client names - The grantee reported brief telephone calls as cases in its Grant Activity Report. Therefore, the use of the term is appropriate to describe records that did not include names.
percentage of errors in the data base - We reviewed our work papers and confirmed that four records were erroneous. We deleted the reference to incorrect problem type and adjusted the error rate to about five percent.
The grantee's August 3, 1998 letter does not clearly define the corrective action that
was being taken. We affirm our recommendations. A corrective action plan for
implementing the recommendations, including dates for completion of corrective
action, should be submitted to the OIG within 30 days of the date of this report.
MANAGEMENT OF PRIVATE ATTORNEY INVOLVEMENT PROGRAM
LSC requires that its grant recipients spend at least 12.5 percent of their basic field
grant award to involve private attorneys in providing legal assistance to eligible clients.
The grantee contracted with the San Diego Volunteer Lawyers Program to meet most
of its Private Attorney Involvement requirement.  The grantee paid the San Diego
Volunteer Lawyers Program about $217,000 in 1997 to provide family law services
to 4,500 clients.  The grantee did not adequately manage its Private Attorney
Involvement Program and has no assurance that the San Diego Volunteer Lawyers
Program served only LSC eligible clients with these funds.
About 90 percent of the cases the San Diego Volunteer Lawyers Program
handled under the Private Attorney Involvement program were domestic violence or
voluntary guardianship cases.  The San Diego Volunteer Lawyers Program did not
determine if clients with guardianship cases met LSC citizenship or resident alien
requirements.  Income eligibility was not verified for clients with domestic violence
cases.  The San Diego Volunteer Lawyers Program staff told us they assumed that
potential clients with domestic violence or voluntary guardianship cases were eligible
for LSC services because they were eligible for services under California law.
The grantee does not have a Private Attorney Involvement program meeting
LSC requirements because its contractor does not make eligibility determinations for
the vast majority of clients.  There is a high probability that many ineligible clients are
being provided legal services.  This flaw is relatively easy to correct.  The contract
between the grantee and the San Diego Volunteer Lawyers Program requires the latter
to comply with the grantee's policies and procedures.  In accordance with this
provision, the grantee should direct the San Diego Volunteer Lawyers Program to make
eligibility determinations for all prospective clients.  Later the grantee should review
a sample of case files to determine if San Diego Volunteer Lawyers Program made the
required eligibility determinations.
In addition to the eligibility determination problems, the San Diego Volunteer
Lawyers Program did not accurately report the number of cases closed.  The San Diego
Volunteer Lawyers Program reported to the grantee that it closed 4,794 cases in
1997.  A detailed case listing produced by the San Diego Volunteer Lawyers Program
showed that 5,889 cases were closed during the year.  However, this number was
significantly overstated. Two causes of the overstatement were that the San Diego
Volunteer Lawyers Program counted as clients both parties in domestic dispute cases
and, in non-domestic cases, individuals whose income may have exceeded LSC limits.
There were no indications that the Program represented both parties in domestic
cases. The Program did not have documentation for the closed cases that it reported
to the grantee. The San Diego Volunteer Lawyers Program attributed the problem to
a misunderstanding of reporting requirements.
The San Diego Volunteer Lawyers Program's Board of Directors recently
approved the purchase of a new case management system and adopted new policies
and procedures designed to correct these problems.  The grantee needs to verify that
the actions have corrected the problems.
RECOMMENDATIONS
We recommend that the grantee:
Require the San Diego Volunteer Lawyers Program to perform eligibility checks for all grantee funded cases.
Implement procedures for periodically reviewing case files to determine if the San Diego Volunteer Lawyers Program made the eligibility determinations.
Require the San Diego Volunteer Lawyers Program to submit a detailed listing supporting the number of cases handled under its contract with the grantee.
Implement procedures for reviewing the detailed listing to ensure it accurately reflects the cases handled.
SUMMARY OF GRANTEE COMMENTS ON PRIVATE ATTORNEY INVOLVEMENT PROGRAM FINDINGS
The grantee's comments confirmed our finding that eligibility checks were not
performed for domestic violence and guardianship cases. However, they disagreed
with the report finding that it did not adequately manage its Private Attorney
Involvement program. The comments stated that the grantee:
has its Executive Director and a member of its Board of Directors actively participate as members of the governing body of the San Diego Volunteer Lawyers Program,
entered into a sub-grant agreement with the San Diego Volunteer Lawyers Program detailing their respective responsibilities, and
conducted periodic reviews of Case Statistics Reports submitted by the San Diego Volunteer Lawyers Program.
The comments also disputed the report's statement that both parties in domestic
dispute cases were counted in reporting closed cases statistics.
The grantee stated that the recommendations had already been implemented and
would continue to be reviewed.
OIG RESPONSE TO GRANTEE COMMENTS
The following addresses the grantee's comments:
We recognize that the grantee's Executive Director and a Board member serve on the Board of the San Diego Volunteer lawyers Program. Serving on the Board does not in itself ensure that LSC requirements are met.
The grantee has a comprehensive sub-grant agreement with the San Diego Volunteer Lawyers program. However, the agreement is not followed. We found no evidence that the required reporting was done or that eligibility checks were performed.
We found no evidence to support the comment that the grantee reviewed Case Statistics Reports prepared by the San Diego Volunteer Lawyers program. The grantee did not have a report on Private Attorney Involvement cases from the San Diego Volunteer Lawyers program. The Private Attorney Involvement data for the Grant Activity report was provided over the telephone by the San Diego Volunteer Lawyers program and was not supported by a detailed list of clients.
We reviewed the work papers documenting the sample cases from the San Diego
Volunteer Lawyers Program. In a sample of 85 cases, 6 cases were closed when
the program discovered it was already representing one of the two parties in a
domestic dispute case. In these cases we did not find any indication that the
program represented both parties in the dispute. However, both parties were
counted as closed cases. We made minor editorial changes to make this report
section clearer.
The grantee's comments indicated that the recommendations to improve the Private
Attorney Involvement Program had been implemented. However the information
presented indicated that implementation was still in process. Therefore, a corrective
action plan for implementing the recommendations, including dates for completing
the actions, is required within 30 days of the date of this report.
APPENDIX 1
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
Closed cases were significantly overstated (page 6).
Recommendations #1-4
Open cases were understated (page 8).
Recommendations #1-4
Some cases did not have client names (page 9).
Recommendation #5
Errors were made in recording client data in the case management system (page 9).
Recommendation #6
Private Attorney Involvement Program was not adequately managed (page 12).
Recommendations #7-10
Appendix 2: Grantee Comments
Exhibit 1 | Exhibit 2 |
Response Attachment